Supreme Court of jBtortf) Caroltna
Fax: (919) 831-5720
Web: https://www.nccourts.gov

AMY L. FUNDERBURK, Clerk
Justice Building, 2 E. Morgan Street
Raleigh, NC 27601
(919) 831-5700

Mailing Address:
P. 0 Box 2170
Raleigh, NC 27602

From Mecklenburg
( 14CRS218077 14CRS218078 15CRS16011 )
From N.C. Court of Appeals
( 16-768 P19-355 P20-505 )
From Mecklenburg
( 14CRS18572 14CRS218077-78 15CRS16011 )
5 November 2020

Mr. Justin Lee Perry
Pro Se
3974 Huttons Lake Court
#0713032
High Point, NC 27265
RE: State v Justin Lee Perry - 250P17-3

Dear Mr. Perry:
The following order has been entered on the motion filed on the 3rd of November 2020 by Defendant
for Petition for Discretionary Review:
"Motion Denied by order of the Court in conference, this the 5th of November 2020."
Davis, J., Recused
s/ Morgan, J.
For the Court
WITNESS my hand and the seal of the Supreme Court of North Carolina, this the 5th day of
November 2020.

Amy L. Funderburk
Clerk, Supreme Court of North Carolina
M. C. Hackneyp'-''
Assistant C\om, Supreme Court Of North Carolina
Copy to:
North Carolina Court of Appeals
Mr. Robert T. Broughton, Special Deputy Attorney General, For State of North Carolina - (By Email)
Mr. Justin Lee Perry, For Perry, Justin Lee
Mr. R. Andrew Murray, District Attorney
Hon. Elisa Chinn-Gary, Clerk
West Publishing - (By Email)
Lexis-Nexis - (By Email)

Jlortlj Carolina
Court of Appeals
DANIEL M. HORNE JR., Clerk

Fax: (919) 831-3615
Web: https://www.nccourts.gov

Court of Appeals Building
One West Morgan Street
Raleigh, NC 27601
(919) 831-3600

Mailing Address:
P. O. Box 2779
Raleigh, NC 27602

No. P20-505
STATE OF NORTH CAROLINA
PLAINTIFF
V.
JUSTIN LEE PERRY
PETITIONER
From Mecklenburg
( 14CRS218077 20CRS1142 )

ORDER
The following order was entered:
The petition filed in this cause by defendant Justin Lee Perry on 28 September 2020 and designated
'Petition for a Writ of Certiorari' is denied.
By order of the Court this the 30th of September 2020.
The above order is therefore certified to the Clerk of the Superior Court, Mecklenburg County.
WITNESS my hand and the seal of the North Carolina Court of Appeals, this the 30th day of
September 2020.

Daniel M. Horne Jr.
Clerk, North Carolina Court of Appeals

Copy to:
Attorney General, For State of North Carolina
Mr. Justin Lee Perry, For Perry, Justin Lee
Hon. Elisa Chinn-Gary, Clerk of Superior Court

APPENDIX I
EXHIBIT C

NORTH CAROLINA
DURHAM COUNTY

IN THE GENERAL COURT OF JUSTICE
SUPERIOR COURT DIVISION

FILE NO 20 CRS 0001142
STATE OF NORTH CARO0INAJG ! 8 A °r $8EKLENBURG COUNTY 14CRS 218077,
"HAHA;

Y. C.SA. 14CRS0218078, AND 15CRS016011)

V.
JUSTIN LEE PERRY

—

ORDER

DEFENDANT

THIS CAUSE coining on to be heard by the undersigned Judge Presiding in the Durham
County Superior Court pursuant to a Petitioner’s Writ of Habeas Corpus that was filed by the
defendant, Pro Se, in the office of the Durham County Clerk of Superior Court on Augusts,
2020. The Court finds that the Defendant was found guilty of Felony Elude Arrest MV2
AGRVTG FCTRS in 14 CRS 218077, Misdemeanor Resisting Public Officer in 14 CRS 218078
and Obtaining a Habitual Felon Status in 15 CRS 16011; and sentence to 90 months minimum to
120 months maximum to be served in the North Carolina Department of Adult Corrections, on or
about April 14, 2016 in Mecklenburg County Superior Court, Criminal Session before the
Honorable Hugh Lewis.
WHEREFORE, The Courts finds that the Defendant is held pursuant to lawful process
and THEREFORE the Petitioner’s Writ of Habeas Corpus is denied.
The Court further Orders that the Superior Court Judicial Assistant shall mail a copy of
this Order to Mecklenburg County Clerk Office and to the Defendant in the NCDAC.
n

This the^/^of

:0.
>

'7

/?

a

Honorable Orlando F. Hudson, Jr.
/
Senior Resident Superior Court JudgeJJf€siding

